No. 19-1360

 

IN THE
Supreme Court of the Anited States

WILLIAM CANNON, SR., e¢ al,
Petitioners,

wx

JOHNNIE LEE SAVORY,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,599 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 10, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
